                                        SOCIAL SECURITY

MEMORANDUM

Date:      February 7, 2012                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Customer Service (A-15-11-11183)


           We contracted with KPMG LLP to evaluate three of the Social Security Administration’s
           performance indicators (PI) established to comply with the Government Performance
           and Results Act of 1993. The attached final report presents the results of the evaluation
           of one PI. For the PI included in this audit, KPMG’s objectives were to:

           1. Comprehend and document the sources of data that were collected to report on the
              specified PI.
           2. Identify and test critical controls (both electronic data processing and manual) of
              systems from which the specified performance data were gathered.
           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
              the underlying data for each of the specified PI.
           4. Recalculate each measure to ascertain its accuracy.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                     Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

   PERFORMANCE INDICATOR AUDIT:
        CUSTOMER SERVICE

      February 2012       A-15-11-11183




AUDIT REPORT




                      .
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
MEMORANDUM

Date:      January 30, 2012

To:        Inspector General

From:      KPMG, LLP

Subject:   Performance Indicator Audit: Customer Service (A-15-11-11183)


           OBJECTIVE
           The Government Performance and Results Act of 1993 (GPRA)1 seeks to improve the
           Government’s internal management, as well as program effectiveness and public
           accountability, by promoting a new focus on results, service quality, and customer
           satisfaction. Specifically, GPRA requires that the Social Security Administration (SSA)
           establish performance indicators (PI) to measure or assess the relevant outputs, service
           levels, and outcomes of each program activity. 2 GPRA also requires a description of
           the means employed to verify and validate the measured values used to report on
           program performance. 3

           For this audit of SSA’s PI for Fiscal Year (FY) 2010, Percent of individuals who do
           business with SSA rating the overall services as “excellent,” “very good,” or “good,” our
           objectives were to:

           1. Comprehend and document the sources of data that were collected to report on the
              specified PI.

           2. Identify and test critical controls (both electronic data processing and manual) of
              systems from which the specified performance data were gathered.

           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
              the underlying data for each of the specified PIs.

           4. Recalculate each measure to ascertain its accuracy.

                                                   ******************

           1
            Pub. L. No. 103-62, 107 Stat. 285 (codified, as amended, in scattered sections of 5 U.S.C., 31 U.S.C.,
           and 39 U.S.C.).
           2
               31 U.S.C. §1115(a)(4).
           3
               31 U.S.C. § 1115(a)(6).


           Performance Indicator Audit: Customer Service (A-15-11-11183)                                        1
This performance audit did not constitute an audit of financial statements in accordance
with generally accepted government auditing standards. KPMG was not engaged to,
and did not, render an opinion on SSA’s internal controls over financial reporting or
financial management systems (for purposes of Office of Management and Budget
Circular A-127, Financial Management Systems, July 23, 1993, as revised). KPMG
cautions that projecting the results of its evaluation to future periods is subject to the
risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.

BACKGROUND
We audited the following PI, which was included in SSA’s FY 2010 Performance and
Accountability Report (PAR).

                         PI                          FY 2010 Target           FY 2010 Actual
    Percent of individuals who do business
                                                          83.5%4                   78.2%4
    with SSA rating the overall service as
    “excellent,” “very good,” or “good.” 4

SSA linked the PI to its strategic objective 3.4a, Improve Service for Individuals Who
Visit Our Field Offices, 5 and strategic goal to Improve Our Retiree and Other Core
Services. 6

SSA provides a range of services to the general public including issuing Social Security
number cards and paying retirement and long-term disability benefits. SSA provides the
public a variety of service options for conducting business and obtaining information.
These options consist of customers calling SSA’s national toll-free number, calling
and/or visiting local field and hearing offices, and using SSA's Website. By continually
assessing how it delivers services to the public, SSA has expanded from an entirely
field office-based operation to one that offers an array of methods the public can interact
with the Agency. 7

Historically, SSA’s Office of Quality Performance (OQP) has used the results of three
ongoing surveys for the PI. Because Internet transactions have become an important
way of doing business with SSA, Internet users were added to the calculation of the PI
for the first time in FY 2009, and the Internet Report Card Survey was introduced as
ongoing performance measurement in FY 2010.

4
 SSA, Performance and Accountability Report (PAR) for Fiscal Year (FY) 2010, page 66,
November 2010.
5
    Id.
6
 SSA, Annual Performance Plan for FY 2011 and Revised Final Performance Plan for FY 2010, page 8,
February 2010.
7
    SSA, PAR for FY 2010, supra note 4 at page 8.


Performance Indicator Audit: Customer Service (A-15-11-11183)                                 2
OQP conducts four surveys using data provided by third-party vendors: the 800-
Number Caller Survey, Field Office Caller Survey, Office Visitor Survey, and Internet
Report Card Survey.

The PI reflects the percent of individuals rating SSA service as excellent, very good, or
good on SSA’s standard six-point rating scale: Excellent; Very Good; Good; Fair; Poor;
Very Poor.

Additionally, SSA will add further segments of individuals using transactional Internet
services incrementally each year from FY 2011 to FY 2013 in the following categories:
changes to beneficiary records; completion of medical forms; and information requests
(such as request for benefit verification).

For additional detail on the surveys and reporting process, refer to the flowcharts in
Appendix C.

PI Background

The 800-Number Caller Survey is conducted with a sample of individuals who received
customer service using SSA’s national 800-number. A detailed call record is generated
and captured by the service provider (currently Verizon), and the raw data are
transmitted to SSA daily over a 4-week period in March/April.

Each year, OQP conducts the Field Office Caller Survey in a random sample of 50 of
SSA’s almost 1,300 field offices. As a result of the multi-year Telephone Service
Replacement Project (TSRP) in which new voice-over Internet telephones are being
installed in all field offices, major changes were needed to the sampling methodology for
the Field Office Caller Survey in FY 2010. OQP conducted a “pilot” field office TSRP
Survey in October 2009 to ensure the new methodology would be successful.

The Office Visitor Survey is conducted with a sample of individuals who conducted
business at 52 randomly selected field offices and 13 hearing offices over a 4-week
period each October. The Office of Quality and Data Management, Division of
Modeling, selects participating field offices using a computer-generated random
selection of offices proportionate to each region to ensure all 10 SSA regions are
represented in the survey. Since there are only 143 hearing offices in total, hearing
offices are randomly selected without regard to region. Each office participates for only
1 week of the 4-week sample period.

The Office of Systems Electronic Services houses records of internet transactions and
provides the Office of Quality Review, Division of Public Service Evaluation, with a file
containing all applications for the designated online service(s) that were completed
during a targeted timeframe. The file provides the sampling frame for the survey. The
timeframe may vary depending on the transaction sampled. However, the file is always
requested in the first or second quarter of the FY to have data available by July to allow
for incorporation into the same FY’s PI by the September reporting due date.


Performance Indicator Audit: Customer Service (A-15-11-11183)                            3
PI Calculation

The PI percentage is derived by dividing the number of respondents who rate overall
service as “good,” “very good,” or “excellent” on a six-point scale ranging from
“excellent” to “very poor” in the FY, by the total number of respondents.

                                             The number of respondents who rate
 Percent of individuals who do            overall service as “excellent”, “very good,”
  business with SSA rating the
                                      =   or “good” on a six-point scale ranging from
 overall services as “excellent,”                  “excellent” to “very poor
     “very good,” or “good”
                                                 Total number of respondents

RESULTS OF REVIEW
Our audit did not identify any significant findings related to the internal controls over the
systems supporting the PI. In addition, our audit did not identify significant findings
regarding the adequacy, accuracy, reasonableness, completeness, and consistency of
the underlying data for the indicators subject to audit. We were able to recalculate the
accuracy of the PI without exception.

We noted that SSA management appeared to have remediated previously identified
issues by improving their internal controls related to documentation of the survey
processes. Survey processes appeared to be current and well-documented.

CONCLUSION
Based on the results of our audit, we believe the PI was adequate, accurate,
reasonable, complete, and consistent with the underlying data. In addition, we noted
that internal controls over the system supporting the PI were operating effectively.




Performance Indicator Audit: Customer Service (A-15-11-11183)                             4
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Flowcharts and Narratives
APPENDIX D – Agency Comments




Performance Indicator Audit: Customer Service (A-15-11-11183)
                                                                    Appendix A

Acronyms
 ANI               Automatic Number Identifier
 APP               Annual Performance Plan
 CATI              Computer-Assisted Telephone Interviewing
 DITM              Division of Integrated Telecommunications Management
 DM                Division of Modeling
 DPSE              Division of Public Service Evaluation
 FY                Fiscal Year
 GPRA              Government Performance and Results Act of 1993
 IDMS              Integrated Database Management System
 OIG               Office of the Inspector General
 OMB               Office of Management and Budget
 OQDM              Office of Quality and Data Management
 OQP               Office of Quality Performance
 OQR               Office of Quality Review
 OSES              Office of Systems Electronic Services
 OTSO              Office of Telecommunications and Systems Operations
 PAR               Performance and Accountability Report
 PI                Performance Indicator
 Pub. L. No.       Public Law
 SSA               Social Security Administration
 TSRP              Telephone Service Replacement Project
 U.S.C.            United States Code
 VoIP              Voice over Internet Protocol




Performance Indicator Audit: Customer Service (A-15-11-11183)              A-1
                                                                                 Appendix B

Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act of 1993 1 business processes related to the
performance indicator (PI), Percent of individuals who do business with SSA rating the
overall services as “excellent,” “very good,” or “good.” Our understanding was obtained
through research and interviewing key SSA personnel from the Office of Quality
Performance (OQP).

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

   Reviewed the Annual Performance Plan for FY 2011 and Revised Final
    Performance Plan for 2010 to obtain an understanding of the Fiscal Year 2010 PIs.

   Reviewed prior Office of the Inspector General and Government Accountability
    Office reports related to SSA’s PIs.

   Reviewed the OQP Overall Service Satisfaction: Fiscal Year 2010 Performance
    Indicator Report (October 2010).

   Reviewed applicable laws, regulations, and SSA policy.

   Reviewed documentation and flowcharts of the performance indicator components.

   Flowcharted the customer service processes. (See Appendix C.)

   Identified and tested key controls related to manual or basic computerized
    processes (for example, spreadsheets, databases, etc.).

   Determined the adequacy, accuracy, reasonableness, completeness, and
    consistency of performance data reported in SSA’s Fiscal Year 2010 Performance
    and Accountability Report.

   Assessed the completeness and accuracy of the data to determine their reliability as
    they pertain to the audit objectives.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.
and 39 U.S.C.).


Performance Indicator Audit: Customer Service (A-15-11-11183)                                   B-1
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives.

We determined that the data used in the report were sufficiently reliable and believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Performance Indicator Audit: Customer Service (A-15-11-11183)                       B-2
                                                                Appendix C

Flowcharts and Narratives




Performance Indicator Audit: Customer Service (A-15-11-11183)         C-1
                            800-NUMBER CALLER SURVEY

Background/Description
Teleservice became a major vehicle for delivering service to the public with the
introduction of SSA’s national 800-number in October 1988. This toll-free system allows
1 of the nearly 4,000 teleservice representatives in Social Security Administration (SSA)
answering sites to answer calls from anywhere in the country. From the start, SSA
received high marks for the quality of its 800-number service and courtesy of its
representatives. To continue this tradition of service, the Office of Quality Performance
(OQP) conducts the 800-Number Caller Survey to measure customer satisfaction. In
addition to obtaining ratings of various aspects of service, the survey is designed to
elicit factual information about caller experiences using SSA’s 800-number and
preferences for conducting future business, including potential for Internet use. The
results of this survey are also used to calculate the Agency’s annual performance
indicator for overall satisfaction of individuals who do business with SSA.

Process to Define Workload/Sampling
The sampling process for this survey begins when a customer contacts SSA’s national
800-number. The service provider (currently Verizon) generates and captures a
detailed call record, and the raw data are transmitted to SSA daily over a 4-week period
in March/April. The Office of Telecommunications and Systems Operations (OTSO),
Division of Integrated Telecommunications Management (DITM), in the Office of
Systems receives the raw data and imports it into the mainframe where it is stored in
the Automatic Number Identifier (ANI) database in an Integrated Database Management
System (IDMS) format.

After the data have been stored in the ANI database, the Office of Quality and Data
Management (OQDM), Division of Modeling (DM), imports the data from the IDMS
format into SAS using the FOCUS information control system. If there are any issues
importing the data, FOCUS generally indicates a problem with the data download. To
ensure that valid data are imported, DM advises DITM of issues with data. DITM then
contacts the vendor to download the data file again. After the data have been imported
without technical errors, DM performs its first manipulation of the raw data using SAS to
extract calls that would disproportionately distort the results of the survey. Calls not in
the specified date/time range, duplicate calls, previously sampled calls, and high volume
callers are removed from the scope of the survey, thus producing a reservoir of eligible
calls in which the caller either selected an automated service or opted to speak to an
agent. DM then reevaluates the end results of this analysis to verify correctness. This
process establishes a list of eligible survey candidates.

After the eligible survey candidates have been established DM, uses SAS to select a
random sample of callers to participate in the survey. This process generates a list of
survey participants that OQDM, DM, exports to a text file, encrypts using WINZIP to
protect personally identifiable information, and emails to the contractor’s project
manager to begin data collection. This process is repeated bi-weekly for the duration of
the 4-week data collection period.


Performance Indicator Audit: Customer Service (A-15-11-11183)                       C-2
Review/Survey Process
The data collection method used for the 800-Number Caller Survey is telephone
interviewing that is done by a privately contracted vendor. SSA provides the vendor
with an Office of Management and Budget (OMB) approved survey questionnaire in
Microsoft Word format in English and Spanish (see Appendices B and C for copies of
the Fiscal Year [FY] 2010 questionnaire in each language) as well as 8 sample files
containing a total of 4,000 telephone numbers. The vendor converts the questionnaire
to Computer-Assisted Telephone Interviewing (CATI) format using a software product of
its choice. CATI is a telephone surveying technique in which the interviewer follows a
script provided by a software application. The interview questions are displayed on the
computer monitor and follow the sequence indicated by the software designer. The
interviewer is able to input the responses received by telephone directly into the
computer system using the keyboard. SSA provides test sample records for the
contractor to prepare the CATI program. To ensure the contractor’s CATI system is
programmed to accurately capture the survey results, the contractor furnishes SSA with
the CATI survey program for testing and validation. The test includes a review of the
flow of questions in the CATI system to ensure the skips are correct and the
questionnaire is set up as intended.

The contractor is responsible for all aspects of the data collection phase of the survey
process. It uses CATI software to manage survey administration, record survey
responses, and monitor case completion. Approximately 1 week after interviewing
begins, the contractor sends SSA an interim data file of survey responses. SSA
reviews the contents of the interim file as a further check on the accuracy of the CATI
program.

At the end of the interviewing period, the contractor provides SSA with a final data file
containing a disposition for every record, showing the date and time of all call attempts,
the outcome of each call attempt (for example, busy signal, interview successfully
completed, refusal, appointment scheduled, etc.), and the final outcome of each case.
The final data file also contains the responses from all completed surveys. The
encrypted file, which contains the raw data for all eight samples, is then emailed to the
Office of Quality Review (OQR), Division of Public Service Evaluation (DPSE), for
analysis.




Performance Indicator Audit: Customer Service (A-15-11-11183)                       C-3
                            FIELD OFFICE CALLER SURVEY

Background/Description
SSA offers telephone service in almost 1,300 field offices. To help improve service and
operations, OQP conducts a survey to assess public satisfaction with field office
telephone service in a random sample of 50 different field offices each year. The
survey is designed to obtain ratings of various aspects of service and to elicit factual
information about caller experiences and preferences for conducting future business,
including potential for Internet use. The results of this survey are also used to calculate
the Agency’s annual performance indicator for overall satisfaction of individuals who do
business with SSA.

As a result of the multi-year Telephone Service Replacement Project (TSRP) in which
new Voice-over Internet Protocol (VOIP) telephones are being installed in all field
offices, major changes were needed to the sampling methodology for the Field Office
Caller Survey in FY 2010. To ensure the new methodology would be successful, OQP
conducted a “pilot” field office TSRP Survey in October 2009. The majority of the
appendices in this document refer to the field office TSRP Survey because they
describe the current procedures for the field office Caller Survey. Updated versions of


Performance Indicator Audit: Customer Service (A-15-11-11183)                        C-4
these appendices specific to the annual field office Caller Survey will be substituted as
they are developed.

Process to Define Workload/Sampling
Each year the OQDM, DM selects a sample of 110 field offices to participate in OQP’s
field office Telephone Service Evaluation. From this sample, OQDM, DM identifies a
sub-sample of 50 field offices for inclusion in the annual field office Caller Survey. The
sub-sample is drawn after sorting the parent sample by region and area. As a result,
the field office Caller Survey sample has a distribution by region and area similar to the
parent field office Telephone Service Evaluation sample.

Avaya is the contractor providing SSA’s VOIP telephone service and call data
management information. Sampling for the field office Caller Survey is limited to calls
recorded in Avaya’s CS1000 system. That file consists only of calls that were answered
by an employee or connected to a voice mailbox. Callers who experience one of the
following situations are not available for sampling: (a) callers who heard the message
that all agents are busy/call back later; (b) callers who used an automated service;
(c) callers who only listened to field office hours and directions; (d) callers who
abandoned in queue; and (e) callers who were transferred to an overflow line after the
maximum wait in queue if their call was ultimately not answered. It is possible that
some of these categories of callers may be subject to sampling in future surveys if
Avaya’s management information structure changes.

From the CS1000 system, Avaya prepares extracts of calls to all 50 sample field offices
for each day in the 4-week sampling period that covers a March/April timeframe.
OQDM, DM manipulates the raw data using SAS to extract calls that would
disproportionately distort the results of the survey. Calls not in the specified date/time
range, duplicate calls, and previously sampled calls are removed from the scope of the
survey, thus producing a reservoir of eligible calls. The end results of this analysis are
then reevaluated by DM to verify correctness. This process establishes a list of eligible
survey candidates.

After the eligible survey candidates have been established, DM uses SAS to select a
random sample of callers to participate in the survey. This process generates a list of
survey participants which DM exports to a text file, encrypts using WINZIP to protect
personally identifiable information, and emails to the contractor’s project manager to
begin data collection. This process is repeated bi-weekly for the duration of the 4-week
data collection period.

Review/Survey Process
The data collection method used for the field office Caller Survey is telephone
interviewing, which is accomplished by a privately contracted vendor. SSA provides the
vendor with an OMB-approved survey questionnaire in Microsoft Word format in English
and Spanish as well as 8 sample files containing a total of 4,000 telephone numbers.
The vendor converts the questionnaire to CATI format using a software product of its
choice. CATI is a telephone surveying technique in which the interviewer follows a


Performance Indicator Audit: Customer Service (A-15-11-11183)                       C-5
script provided by a software application. The interview questions are displayed on the
computer monitor and follow the sequence indicated by the software designer. The
interviewer is able to input the responses received by telephone into the computer
system using the keyboard. SSA provides test sample records for the contractor to use
in preparing the CATI program. To ensure the contractor’s CATI system is programmed
to accurately capture the survey results, the contractor furnishes SSA with the CATI
survey program for testing and validation. The test includes a review of the flow of
questions in the CATI system to ensure the skips are correct and the questionnaire is
set up as intended.

The contractor is responsible for all aspects of the data collection phase of the survey
process. It uses CATI software to manage survey administration, record survey
responses, and monitor case completion. Approximately 1 week after interviewing
begins, the contractor sends SSA an interim data file of survey responses. SSA
reviews the contents of the interim file as a further check on the accuracy of the CATI
program.

At the end of the interviewing period, the contractor provides SSA with a final data file
containing a disposition for every record, showing the date and time of all call attempts,
the outcome of each call attempt (for example, busy signal, interview successfully
completed, refusal, appointment scheduled, etc.), and the final outcome of each case.
The final data file also contains the responses from all completed surveys. The
encrypted file, which contains the raw data for all eight samples, is then emailed to
OQR), DPSE for analysis.




Performance Indicator Audit: Customer Service (A-15-11-11183)                       C-6
                                OFFICE VISITOR SURVEY

Background/Description
Each year, SSA conducts an office visitor survey to measure the satisfaction of
individuals who have visited one of SSA’s field offices or hearing offices to complete
their business. It collects information that aids in understanding the customer
experience that substantiates satisfaction ratings. SSA has been conducting a
satisfaction survey with the office visitor population since 1999.

Process to Define Workload/Sampling
The first step in conducting the office visitor survey is to select the offices that will
participate in the survey. The survey is conducted with a sample of individuals who
transacted business at 52 randomly selected field offices and 13 hearing offices over a
4-week period in October each year. To ensure all 10 SSA regions are represented in
the survey, DM selects participating field offices using SAS to randomly select offices
proportionate to region. Since there are only 143 hearing offices, hearing offices are
randomly selected without regard to region.




Performance Indicator Audit: Customer Service (A-15-11-11183)                       C-7
DPSE notifies each sampled office of their selection and provides explicit instructions
for collecting and submitting daily visitor information. Each office participates for only
1 week of the 4-week sample period.

Once the field offices/hearing offices have been selected, the next phase of the survey
involves establishing the universe of survey participants. The office visitor survey differs
from the other performance measure surveys in that eligible survey participants are not
selected electronically from an automated data collection system. Instead, service
representatives and claim representatives in field offices/hearing offices collect contact
information from all visitors and input it into an electronic data file, which they then
transmit to DPSE.

To record identifying information, all individuals who visit the field office/hearing office to
conduct business with SSA are included and considered eligible survey participants. A
visit is considered a business contact with the Agency and should be included even if no
action is taken. For hearing offices, all claimants who visit the hearing office to attend a
scheduled hearing and visitors to remote hearing sites are considered office visitors.

The field office/hearing office records each customer’s full name, complete mailing
address including apartment number, city/State/ZIP code, telephone number, reason for
visit, and the visitor’s preferred language for conducting business with SSA. At the
close of business each day, the survey coordinator in the field office/hearing office
sends the file of visitor information to DPSE. Upon receipt of the data file, DPSE
analysts review the data to ensure they are complete and accurate. Once verified,
DPSE forwards the file to DM for sampling.

To select the sample of eligible visitors, OQDM, DM uses SAS to randomly select a
sample of 310 names per day (up to 275 from field offices and 35 from hearing offices)
from the reported population every 2 to 3 days during the survey period. One sample
file each week contains approximately 930 names, addresses, control numbers and
language indicators (representing 3 days of selections). The second sample file
(representing 2 days of selections) includes approximately 620 names, addresses, and
language indicators. Once prepared, DM encrypts the sample files using WINZIP to
protect PII and electronically sends them to the contractor to prepare the scannable
forms for mailing and data collection. This sampling and mailing process is repeated bi-
weekly for each week during the survey period.

Review/Survey Process
The contractor is responsible for designing a scannable questionnaire in both English
and Spanish based on questions that SSA furnishes (Spanish translations are provided
by SSA).

The data collection method used for the office visitor survey is a scannable mail survey,
which is carried out by a privately contracted vendor. SSA provides the contractor with
the necessary tools to conduct the survey, such as an OMB-approved survey
questionnaire in Microsoft Word format in both English and Spanish for the pre-notice


Performance Indicator Audit: Customer Service (A-15-11-11183)                           C-8
postcard and initial and follow-up cover letters in both English and Spanish, and eight
Excel sample files. To ensure the success and accuracy of the survey, SSA provides
the contractor with test sample data at a mutually agreed upon time to develop any
aspect of the printing, mailing or data collection operation.

The contractor is responsible for all aspects of the data collection phase of the survey
process. It creates scannable surveys, mails the surveys, tracks the disposition of the
surveys, processes all completed surveys, and provides the results of the surveys. It
also develop the database to capture the results of the survey. The hardware and
software platform used to process the questionnaires is left to the contractor’s
discretion. DPSE reviews a set of test data to confirm that the data scanning process
accurately records the answers on completed survey forms in the database.

OQR, DPSE assigns a control number to each participant and includes it in the sample
file that is sent to the contractor. The contractor tracks the disposition of all mailed
survey packages and records the final outcome for every sampled individual based on
the assigned control number.

The contractor is responsible for processing all completed questionnaires. The results
for all sample listings are returned to SSA in an electronic format and include all
responses and all narrative comments associated with each unique control number
represented by the barcode on completed questionnaires. A questionnaire is
considered “complete” if at least one question was answered. On all other records
(questionnaire not completed), the results contain a disposition indicator which specifies
a final outcome (no survey returned, wrong address, etc.) for each sampled individual.
The contractor provides raw data to DPSE in a WINZIP-encrypted file to protect
sampled individuals’ PII. DPSE ensures that data are recorded for each control
number.




Performance Indicator Audit: Customer Service (A-15-11-11183)                      C-9
                          INTERNET REPORT CARD SURVEY

Background/Description
Annually, SSA surveys individuals who do business with SSA to assess their
satisfaction with the specific mode of contact they used. Traditionally, SSA used the
results of three ongoing surveys of 800-number and field office callers and office visitors
to produce its key performance indicator, “percent of individuals doing business with
SSA who rate overall service excellent, very good or good.” Because Internet
transactions have grown into another important method for doing business with SSA,
OQP added the satisfaction of Internet users into the calculation of our performance
indicator for the first time in FY 2009 and introduced the Internet report card Survey into
the ongoing performance measurement in FY 2010.

The Internet report card Survey assesses the satisfaction of the people who use our
online transaction services. Conducted by mail shortly after participants complete their
transaction on SSA’s Website, it also collects information that will help SSA understand
the customer experience behind their satisfaction ratings.




Performance Indicator Audit: Customer Service (A-15-11-11183)                      C-10
Process to Define Workload/Sampling
To establish eligible participants for the Internet report card Survey, the Office of
Systems Electronic Services (OSES) in DPSE with a file containing all applications for
the designated online service(s) that were completed during a targeted timeframe. This
timeframe may vary depending on the transaction sampled, but the file is always
requested in the 1st or 2nd quarter of the FY to have data available by July to allow for
incorporation into the same FY’s performance indicator by the September reporting due
date. At a minimum, the file itself includes the following information for every record:
the sampled individual’s name and Social Security number as well as the type of online
business transacted. If the mailing address is not available from the online transaction
(for example, as in direct deposit transactions), the OSES file is matched against other
SSA databases such as the Master Beneficiary Record to obtain a mailing address.

In light of workload and budget constraints, SSA is implementing the Internet report card
Survey incrementally. The sample for the FY 2010 Internet report card Survey included
three strata of individuals who completed one of SSA’s online applications: iClaim for
retirement or Title II disability benefits or an i1020 for Medicare Part D Subsidy. In
subsequent years OQR, DPSE plans to expand the Internet report card Survey to
include iClaim for Medicare only (FY 2011) and the three other categories of
transactions SSA currently offers on its Website: reports of a change (FY 2011),
disability report forms(FY 2012), and requests for information (FY 2013).

Upon receipt of the data file, the DM staff applies the sampling criteria and use SAS to
randomly select 2,000 users for each of the strata within a transaction category and
provide DPSE with a sample file in Excel. DPSE staff then review the Excel sample file
to ensure that it is complete and accurate. Finally, DPSE encrypts the sample using
WinZip and emails it to the contractor to prepare the scannable forms for mailing and
data collection.

Review/Survey Process
The contractor is responsible for designing a scannable questionnaire based on
questions that SSA furnishes. The survey is conducted in English only because SSA’s
transactional online services are available only in English. SSA will provide a unique
questionnaire for the remaining Internet transaction categories as each option year
contract is exercised. Although the content of each questionnaire is tailored to the
particular Internet transaction, all questionnaires will be similar in size and format to the
questionnaire designed for FY 2010.

The data collection method used for the Internet report card Survey is a scannable mail
survey. Data collection is carried out by a privately contracted vendor. SSA provides
the contractor with the necessary tools to conduct the 3-part survey, which includes: An
OMB-approved survey questionnaire in Microsoft Word format, language for a pre-
notice postcard and initial and follow-up survey letters, and sample files containing
2,000 records per stratum. To ensure the success and accuracy of the survey, SSA
also provides the contractor with test sample data at a mutually agreed upon time to
develop any aspect of the printing, mailing or data collection operation.


Performance Indicator Audit: Customer Service (A-15-11-11183)                         C-11
The contractor is responsible for all aspects of the data collection phase of the survey
process. It creates scannable survey forms, mails the surveys, tracks the disposition of
the surveys, processes all completed surveys, and provides the results of the surveys.
It also develops a database to capture the results of the survey. The hardware and
software platform used to process the questionnaires is left to the contractor’s
discretion. DPSE reviews a set of test data to confirm that the data scanning process
accurately records the answers on completed survey forms in the database.

DPSE assigns a control number for each participant and provides it to the contractor.
The contractor tracks the disposition of all mailed survey packages and records the final
outcome for every sampled individual based on the assigned control number.

The contractor is responsible for processing all completed questionnaires. The results
for all sample listings are submitted in an electronic format and include all responses
and all narrative comments associated with each unique control number represented by
the barcode on completed questionnaires. A questionnaire is considered “complete” if
at least one question was answered. On all other records (questionnaire not
completed), the results contain a disposition indicator which specifies a final outcome
(no survey returned, wrong address, etc.) for each sampled individual. The contractor
provides raw data to DPSE and is not required to perform any data tabulations. DPSE
ensures that data are recorded for each control number.




Performance Indicator Audit: Customer Service (A-15-11-11183)                    C-12
                                                                                        Appendix D

           Agency Comments



                                               Social Security
MEMORANDUM
Date:      January 13, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/ TF
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Performance Indicator Audit: Customer Service”
           (A-15-11-11183)—INFORMATION

           Thank you for the opportunity to review the draft report. We reviewed the report and have no
           comment.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.




           Performance Indicator Audit: Customer Service (A-15-11-11183)                               D-1
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
